September 25, 2009

ROLAND A. FUENTES
SENIOR PLANT MANAGER, DENVER PROCESSING AND DISTRIBUTION CENTER

SUBJECT: Audit Report – Sunday Mail Processing Operations
         (Report Number NO-AR-09-012)

This report presents the results of our review of Sunday mail processing operations at
the Denver Processing and Distribution Center (P&DC) located in the
Colorado/Wyoming Customer Service District, Western Area (Project Number
09XG016NO000). Our objective was to determine if Sunday mail processing
operations could be eliminated or streamlined. The Colorado/Wyoming Customer
Service District was identified as high-risk by the Performance and Results Information
Systems Network and Delivery Optimization Risk Model.1 This audit addresses
operational risk and is one in a series being conducted based on a request from the
former Vice President, Network Operations. See Appendix A for additional information
about this audit.

Conclusion

We concluded Sunday mail processing operations at the Denver P&DC could not be
eliminated,2 but could be streamlined through improving operational efficiencies and
processing some mail on Monday instead of Sunday.

Efficiency of Mail Processing Operations

The Denver P&DC could streamline Sunday operations by improving efficiency. We
found that:

    •    Sunday is the least productive day of the week and the second highest day for
         overtime usage.

    •    Comparing Sunday operations to similarly sized or Group 1 facilities3 showed
         that the Denver P&DC is a low performer.


1
  In Quarter 1, fiscal year (FY) 2009, the Colorado/Wyoming Customer Service District ranked the most at risk,
respectively, of 80 districts with low service scores for 2- and 3-day mail, low Breakthrough Productivity Initiative
performance, high overtime in delivery and mail processing, as well as a high percentage of carriers returning after
5 p.m.
2
  The processing of some mail is necessary on Sunday since there was not sufficient processing time on Monday to
meet service requirements.
Sunday Mail Processing Operations                                                                      NO-AR-09-012




    •    The Denver P&DC could process some mail worked on Sunday on Monday
         without significantly increasing workhours or impacting service.

Several factors contributed to the inefficiencies and extent of Sunday mail processing
operations at the Denver P&DC. Specifically:

    •    Management did not perform a staffing analysis in relation to workload to ensure
         they properly scheduled employees.4

    •    Management did not evaluate mail processing activities to determine if
         employees could more efficiently process some mail on automated equipment
         rather than manually.

    •    Management did not review all operations to determine whether they could
         eliminate some of these activities on Sunday.

    •    Supervisors did not ensure employees were actively engaged in mail processing
         operations or followed established color code and mail staging procedures.

Consequently, the Denver P&DC used more workhours than necessary to process its
workload on Sunday, at a higher labor cost. If the Denver P&DC could improve
efficiency to the top 10 Group 1 facility average, it could save approximately 122,000
workhours. Based on the savings of 39,000 workhours already achieved, the Denver
P&DC should further reduce Sunday mail processing workhours by 83,000 with an
economic impact of approximately $38 million over 10 years. See Appendix B for our
detailed analysis of this topic, and Appendix C for calculation of workhour savings.

We recommend the Senior Plant Manager, Denver Processing and Distribution Center:

1. Reduce 83,000 workhours, based on fiscal year (FY) 2008 usage, by the end of
   FY 2010 with an associated economic impact of approximately $38 million over a
   10-year period.

2. Periodically evaluate staffing and operating efficiency. If mail volume continues to
   decline and/ or automation capacity increases, determine whether further reductions
   to Sunday operations can be made.




3
  We compared the Denver P&DC to similarly sized Group 1 facilities for FY 2008. The Denver P&DC is a Group 1
processing facility (based on FY 2006 groupings). Group 1 processing facilities or plants are the largest processing
facilities in terms of the amount of mail volumes processed and workhours used. There are a total of 36 plants
considered to be Group 1 facilities.
4
  Management’s abilities to change work schedules is limited due to labor union contractual restrictions. Our future
capping report will address and summarize this issue.




                                                          2
Sunday Mail Processing Operations                                          NO-AR-09-012



3. Provide additional training and guidance to supervisors as necessary to achieve
   consistent, quality supervision and ensure employees are trained in and follow
   established color code and mail staging procedures.

Management’s Comments

Management agreed with our findings and recommendations. Management agreed to
reduce workhours by 83,000 by the end of FY 2010 and will have reduced them by
about 22,000 by the end of FY 2009. Additionally, management agreed to periodically
evaluate staffing and operating efficiency and provide training and guidance to
supervisors to ensure they follow procedures. See Appendix D for management’s
comments in their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendations and management’s comments should
identify the issues identified in the report.

The OIG considers recommendation 1 significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. This recommendation should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendation can be closed.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact James L. Ballard, Director,
Network Processing, or me at (703) 248-2100.

     E-Signed by Robert Batta
 VERIFY authenticity with ApproveIt




Robert J. Batta
Deputy Assistant Inspector General
 for Mission Operations

Attachments

cc: Patrick R. Donahoe
    Steve J. Forte
    Jordan M. Small
    Sylvester Black
    Frank Neri
    Selwyn D. Epperson
    Bill Harris



                                          3
Sunday Mail Processing Operations                                                                NO-AR-09-012



                          APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

In FY 2008, mail volume has declined by 9.5 billion pieces (4.5 percent), leading to a
loss of $2.8 billion. During the first 5 months of FY 2009, the Postal Service has seen
an accelerated decline in mail volume (about 11 billion pieces) with a total loss of about
$2 billion. Furthermore, projections for the remainder of FY 2009 suggest mail will
continue to decline by 27 billion pieces (13 percent) resulting in a net loss of $7 billion.

While the Postal Service has reduced expenses by $773 million in the first 5 months of
FY 2009, the expense reduction was not sufficient to fully offset the decline in mail
volume and rising cost of workers’ compensation and retirement costs. In recent
testimony before Congress,5 the U.S. Government Accountability Office (GAO)
recommended that urgent action was needed to streamline the mail processing and
retail networks, as the Postal Service no longer has sufficient revenue to cover the cost
of maintaining its large network of processing and retail facilities. Furthermore, the
GAO stated it was necessary for the Postal Service to consider whether it was cost-
effective to retain underutilized facilities and to take action to right size its network.

A P&DC is a large mail processing facility that processes and dispatches part or all of
both incoming mail and outgoing mail for a designated service area. It also provides
instructions on the preparation of collection mail, dispatch schedules, and sorting plan
requirements to mailers. The Postal Service has approximately 400 processing
facilities. Postal Service employees receive premium pay on Sunday. This premium
pay is based on the employee’s regular salary with an additional 25 percent pay per
hour for Sunday. If an employee works during a scheduled tour that includes any part
of a Sunday, the employee is paid premium pay for all hours worked that day. For
example, if an employee’s tour of duty starts at 10 p.m. on Saturday night and ends at
6:00 a.m. on Sunday morning, the employee is paid a premium for the entire 8 hours,
not just the 6 hours that were worked on Sunday.

The Denver P&DC is located in Denver, CO, Colorado/Wyoming Customer Service
District in the Western Area, and has approximately 1,600 employees. In FY 2008, the
Denver P&DC processed over 2 billion first handling pieces (FHP) using 3.4 million
workhours. The Denver P&DC reduced Function 16 workhours by over 285,000
compared to same period last year – including 39,000 workhours for Sunday
operations.




5
  GAO-09-475T, Testimony before the Subcommittee on Federal Workforce, Postal Service, and the District of
Columbia, Committee on Oversight and Government Reform, House of Representatives, dated March 25, 2009.
6
  Mail processing operations are in the Function 1 category.




                                                       4
Sunday Mail Processing Operations                                           NO-AR-09-012



OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to determine whether Denver P&DC Sunday mail processing
operations could be eliminated or streamlined. To accomplish this objective we:

    • Interviewed Postal Service officials.
    • Analyzed mail volume, workhours, and machine output trends.
    • Reviewed employee work schedules.
    • Benchmarked against other similarly sized sites (Group 1) sites, comparing all
      days of the week.
    • Observed mail processing operations.

We relied on Postal Service data systems, including:

   •    Web Enterprise Information System
   •    Web End Of Run System
   •    Management Operating Data System
   •    Enterprise Data Warehouse

We obtained data from October 1, 2007, through September 30, 2008, but did not test
controls over these systems. However, we checked the reasonableness of results by
confirming our analysis and results with management and multiple data sources.

We conducted this performance audit from February through September 2009 in
accordance with generally accepted government auditing standards and included such
tests of internal controls, as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management officials on July 30, 2009, and included
their comments where appropriate.

PRIOR AUDIT COVERAGE

We conducted 18 efficiency reviews that recommended a workhour reduction of
approximately 26 million with an associated economic impact in excess of $2 billion.
These audits found that management could improve efficiencies at these processing
facilities through workhour reductions. Management agreed with the recommendations
made in each of these reports.




                                           5
Sunday Mail Processing Operations                                     NO-AR-09-012




                                        REPORT       FINAL REPORT   MONETARY
           REPORT TITLE
                                        NUMBER           DATE        IMPACT
 Efficiency of the Oakland
 International Service Facility and   NO-AR-04-007     3/31/2004    $17,013,959
 the Regatta Facility
 Efficiency of the San Francisco
 International Service Center and
                                      NO-AR-04-006     3/31/2004    44,263,283
 the General Service
 Administration Facility
 Efficiency of the New York
                                      NO-AR-04-009     9/24/2004    98,355,534
 International Service Center
 Efficiency of the Air Mail Records
 Unit at the New York International   NO-AR-04-011     9/24/2004     9,248,967
 Service Center
 Efficiency Review of the
                                      NO-AR-05-004     12/8/2004    17,183,404
 Mansfield, OH Main Post Office
 Efficiency Review of the Akron,
 OH Processing and Distribution       NO-AR-05-009     3/30/2005    73,996,558
 Center
 Efficiency of the Air Mail Records
 Unit at the Los Angeles              NO-AR-05-010     4/28/2005     1,847,858
 International Service Center
 Efficiency of the Los Angeles
                                      NO-AR-05-011     6/17/2005    26,075,474
 International Service Center
 Efficiency of the Air Mail Records
 Unit at the San Francisco            NO-AR-05-012     9/6/2005      2,563,277
 International Service Center
 Efficiency Review of the Canton,
 OH Processing and Distribution       NO-AR-05-013     9/22/2005    63,617,713
 Center
 Efficiency of the Chicago Air Mail
 Records Unit at the J. T. Weeker     NO-AR-06-002    12/22/2005     1,121,794
 International Service Center
 Efficiency Review of the
                                      NO-AR-06-003     2/22/2006    118,383.220
 Washington Bulk Mail Center
 Efficiency of Carrier Sequence
                                      NO-AR-06-005     8/2/2006      3,688,930
 Barcode Sorters
 Efficiency Review of the Los
 Angeles, CA, Worldway Air Mail       NO-AR-06-006     9/12/2006    192,173,980
 Center
 Efficiency Review of the
 Bridgeport Processing and
                                      NO-AR-07-004     4/25/2007    17,740,107
 Distribution Facility, Bridgeport,
 CT




                                           6
Sunday Mail Processing Operations                                       NO-AR-09-012



                                        REPORT       FINAL REPORT    MONETARY
           REPORT TITLE
                                        NUMBER           DATE         IMPACT
 Efficiency Review of the Dallas
                                      NO-AR-07-005     5/31/2007     134,971,638
 Bulk Mail Center
 Summary Audit on the Timeliness
 of Mail Processing, Transportation
                                      NO-AR-08-003     3/28/2008     231,337,397
 and Delivery in the Chicago
 District
 Assessment of Overall Plant          NO-MA-09-002     5/8/2009      969,495,708
 Efficiency
                                                       TOTALS       $2,023,078,801




                                           7
Sunday Mail Processing Operations                                                                          NO-AR-09-012



                                      APPENDIX B: DETAILED ANALYSIS

Efficiency of Mail Processing Operations

The Denver P&DC could streamline Sunday operations by improving efficiency.
However, Sunday operations cannot be eliminated because some operations must be
performed that day to meet delivery standards. For example, the Denver P&DC has to
process incoming7 flat mail volumes on Sunday because it does not have sufficient
machine capacity to process this mail on Monday. Sunday processing ensures the mail
is ready for delivery on Monday.

Sunday Productivity and Overtime

Sunday is an ideal day to eliminate or streamline mail processing operations. When
comparing the Denver P&DC’s FHP productivity on Sunday to other days of the week,
Sunday was the facility’s lowest performing day, averaging 613 pieces per hour,
compared to 731 on Friday, the highest performing day. See Graph 1. Sunday was
also the second highest day for overtime usage, averaging almost 11 percent of total
workhours. See Graph 2.

                    Graph 1. Denver P&DC FY 2008 FHP Productivity by Day


      740


      720


      700


      680


      660


      640


      620


      600


      580


      560


      540
              Saturday       Sunday       Monday        Tuesday     Wednesday      Thursday       Friday




7
    Incoming mail is received from other P&DC’s from around the country for delivery in a given service area.




                                                            8
Sunday Mail Processing Operations                                                                      NO-AR-09-012




               Graph 2. Denver P&DC FY 2008 Overtime Percentage by Day




Comparison to Top 10 Group 1 Facilities (Similarly Sized Sites)

The Denver P&DC was below the top 10 productivity Group 1 facilities average.8 For
example, the Denver P&DC:

    •    Processed 2,479 letters per hour in Automated/Mechanized Letter Operations
         compared to the Group 1 facilities average of 3,303 letters per hour. In other
         words, the Group 1 facilities process approximately 33 percent more volume per
         hour than the Denver P&DC.

    •    Used more hours compared to the Group 1 facilities average, as a percent of
         total mail processing hours in Allied and Miscellaneous Operations, which
         includes traying mail, opening and dumping mail from containers, loading and
         unloading trucks.9

If the Denver P&DC increased its Sunday productivity to the top 10 average of the
Group 1 facilities, it could realize workhour savings of approximately 118,000. See
Table 1 for details.




8
  We used the Group 1 facilities top 10 average to rank the Denver P&DC in the upper one-third of Group 1 facilities.
Discussions with management indicated this is a realistic and achievable target for the Denver P&DC.
9
  Allied and Miscellaneous Operations did not have mail processing volumes; therefore, a productivity ratio is not
possible. Instead, we used the percentage of workhours used in these operations as a percentage of total mail
processing workhours for comparison purposes.




                                                          9
   Sunday Mail Processing Operations                                                      NO-AR-09-012




                            Table 1. Sunday Productivity
              Comparing Denver P&DC to Top 10 Group 1 Facilities Averages

                                                                      Group 1 Facility     Workhour
                                 Denver P&DC –                           Sunday –        Saving if Group
Labor Distribution Code (LDC) Mailpieces Processed                      Mailpieces          1 Facility
                                  Per Workhour                        Processed Per        Average is
                                                                        Workhour           Achieved
Automated/Mechanized Letter
                                                 2,479                        3,303          15,660
Processing (LDC 11)
Automated/Mechanized Flat
                                                 1,695                        3,128          10,022
Processing (LDC 12)
Automated/Mechanized Parcel
                                                   165                        129        Not Applicable
Processing (LDC 13)
Manual Letter, Flat, Parcel
                                                   99                         300            32,492
Processing (LDC 14)
                                        Percentage of Total           Percentage of
                                            Workhours                Total Workhours

Allied Operations (LDC 17)                       43.46                        30.96          48,714
Miscellaneous Operations
                                                  7.92                        5.18           10,678
(LDC 18)**
Total Workhour Savings                                                                       117,566
   **Includes Express Mail®, registry operations, union time, meeting time.

   Some Sunday Mail Could be Processed on Monday

   The Denver P&DC could process some mail worked on Sunday on Monday without
   significantly increasing workhours on Monday or impacting service. For FY 2008, we
   found the idle time percentage was high for Combined Input/Output Subsystem
   (CIOSS), Delivery Bar Code Sorter (DBCS), and DBCS with Input Subsystem and
   Output Subsystem (DIOSS) machines while in the operational mode. Thus, additional
   capacity exists to process Delivery Point Sequencing mail. See highlighted numbers in
   Table 2 below.




                                                        10
Sunday Mail Processing Operations                                                                      NO-AR-09-012




                               Table 2. FY 2008 End of Run Summary


                         Operational                                    Idle Time            Average Hours
                                                  Idle Time
                           Time                                        Percentage             Run Per Day

         CIOSS                9,913                 3,180                  32.08                      6.1
         DBCS               150,648                 57,870                 38.41                      6.6
         DIOSS               38,498                 19,929                 51.77                      4.7

Moreover, our observations for the weekends of April 25 and May 2, 2009, and
subsequent analysis10 showed sufficient machine capacity to process some Sunday first
pass letter mail volumes on Monday. For example, of the 2.1 million letters processed
on Sunday, April 26, approximately 30 percent (or 621,000 pieces) could be processed
on Monday with little or no increase in workhours. Similarly, of the 2.5 million letters
processed on Sunday, May 3, approximately 25 percent (or 625,000 pieces) could be
processed on Monday. These figures represent low volume sort plans.11

Causes

Several factors contributed to the inefficiencies and extent of Sunday mail processing
operations at the Denver P&DC. See Illustrations 1 through 3. Specifically:

     •    Management did not perform a staffing analysis in relation to workload to ensure
          they properly scheduled employees.12

     •    Management did not evaluate mail processing activities to determine if
          employees could more efficiently process some mail on automated equipment
          rather than manually.

     •    Management did not review all operations to determine if they could eliminate
          some of these activities on Sunday.

     •    Supervisors did not ensure employees were actively engaged in mail processing
          operations or followed established color code and mail staging procedures.


10
   Analysis based on FY 2008 average Sunday processing of total mailpieces fed.
11
   Our analysis was limited to low volume sort plans, which indicated low productivity. A low volume sort plan is a
software configuration that maps mailpieces (less than 50,000 mailpieces) and directs them to specific holdouts
contingent upon the type of mail being run.
12
   Management’s abilities to change work schedules is limited due to labor union contractual restrictions. Our future
capping report will address and summarize this issue.




                                                          11
Sunday Mail Processing Operations                                                                  NO-AR-09-012




Sources of Efficiency Improvement

We identified opportunities to increase efficiency by improving employee scheduling,
better utilizing automated equipment, ensuring employees properly stage mail, and
eliminating non-essential mail processing activities.

Staffing analysis and employee scheduling - Management had not performed a staffing
analysis in relation to workload and employee scheduling in manual letter operations.
Better employee scheduling would improve productivity. The average productivity for
Sunday manual letter operations for the Top 10 Group 1 facilities was 300 letters per
hour; whereas the Denver P&DC’s average productivity on Sunday was 99 letters per
hour. This low productivity indicates the facility used more hours than necessary to
process letter volumes on Sunday. If the Denver P&DC could more accurately match
staffing to workload and achieve the average productivity of the Top 10 Group 1
facilities, it would result in a savings of approximately 32,000 workhours.13

Evaluation of mail processing activities and utilizing automated equipment -
Management did not evaluate mail processing activities to determine whether some
mail could be more efficiently processed on automated equipment. Employees were
manually processing mail, rather than using the idle Automated Package Processing
System (APPS)14 that could process this mail faster with less workhours. Supervisors
stated that manually processing the mail kept all employees productive. The APPS can
process an average of 729 pieces of Priority Mail® per hour as compared to the 207
piece average which the employees process manually.15 See Illustration 1.




13
   The 32,000 workhours are reflected in Table 1 and are part of the claimed 118,000 workhour savings.
14
   The APPS costs about $4.9 million per machine, and sorts parcels with Optical Character Recognition and Barcode
Readers.
15
   Priority Mail computation are based on FY 2008.




                                                       12
Sunday Mail Processing Operations                                              NO-AR-09-012




Illustration 1. As many as 20-25 clerks worked Priority Mail for dispatch manually,
rather than on the APPS. (Photograph taken April 25, 2009, at 9:44 p.m. This is
Sunday’s Tour 1 operation which begins on Saturday night.)

Eliminating Mail Processing Activities That Are Not Essential on Sunday – If the Denver
P&DC eliminated non-essential mail processing activities on Sunday, it could realize
additional productivity gains and workhour savings. We identified workhours being used
in 22 mail processing operations in the various LDCs, not be essential to Sunday mail
processing operations. The majority of these processing activities involve outgoing
operations, which include the processing and distribution of collection mail. Since there
are few dispatches to carrier stations and post offices on Sunday and no Sunday
delivery to customers, the impact of eliminating these activities is minimal. This mail
can be processed on Monday and still meet established service standards. Additionally,
since there is no pick-up of collection mail on Sunday, they could eliminate mail
cancellation operations on Sunday. The associated allied operations are also non-
essential on Sundays.

See Table 3 for a specific list of operations that are not essential to Sunday mail
processing.




                                            13
Sunday Mail Processing Operations                                                 NO-AR-09-012




                    Table 3. Opportunities to Improve Efficiency
             Operations that are not Essential to Sunday Mail Processing

                                    Operation
                   LDC                                 Operation Description
                                     Number
                                       271      DBCS OSS - OUTGOING PRIMARY
                                       281      DBCS ISS - OUTGOING PRIMARY
                                                DBCS-ISS/OSS MODE - OUTGOING
                                       291      PRIMARY
                    11                 891      DBCS - OUTGOING PRIMARY
                                       892      DBCS - OUTGOING SECONDARY
                                       897      DBCS - BOX SECTION
                                       141      MPFSM - OUTGOING PRIMARY
                                       441      FSM 1000 - OUTGOING PRIMARY
                    12                 442      FSM 1000 - OUTGOING SECONDARY
                                       811      UFSM 1000 OCR - O/G PRIMARY
                                       812      UFSM 1000 OCR - O/G SECONDARY
                                       030      MANUAL LTR - OUTGOING PRIMARY
                                       040      MANUAL LTR - OUTGOING SECONDARY
                    14                 060      MANUAL FLT - OUTGOING PRIMARY
                                       070      MANUAL FLT - OUTGOING SECONDARY
                                       090      LSM - INTERNATIONAL INBOUND
                                       321      O/G PRIMARY PARCELS - PRIORITY
                                       010      HAND CANCELLATIONS
                    17                 015      ADVANCED FACER CANCELLER SYSTEM
                                       017      ALLIED LABOR - CANCELLATIONS
                                       585      REGISTRY SECTION
                    18                 588      REGISTRY SECTION

Inadequate Supervision – All employees were not being supervised, and at times, it was
difficult to locate a supervisor in some operations. For example, in the manual letter
operation (030), employees were idle, chatting and walking through the casing area,
while some employees were sitting casing the mail. See Illustrations 2 and 3.




                                                  14
Sunday Mail Processing Operations                                          NO-AR-09-012




Illustration 2. The manual operation had inadequate supervision. Clerks are standing in
the aisle talking, instead of processing the mail. (Photograph taken April 25, 2009, at
11:06 p.m. This is Sunday’s Tour 1 operation, which begins on Saturday night.)




                                          15
Sunday Mail Processing Operations                                                                          NO-AR-09-012




Illustration 3. Clerk was observed on several different occasions throughout the Tour
sitting idle, engaged in activities other than mail processing. Better supervision is
needed to ensure employees are productive. (Photograph taken June 28, 2009, at
8:42 p.m.)

Additionally, supervisors did not ensure employees were following established
procedures when staging mail. Proper application of color code tags and following
FIFO16 procedures would assist Denver P&DC employees in prioritizing mail for
processing and ensuring the oldest mail is readily identifiable and available for
processing. This would reduce mail handling and save workhours. See Illustrations 4
and 5.




16
  FIFO is a method of inventory evaluation that presumes the oldest inventory (first in) is the first to be used (first
out).




                                                            16
Sunday Mail Processing Operations                                            NO-AR-09-012




Illustration 4. Standard Mail without color code label, time, or date. Without a proper
color code, employees cannot determine when to process this mail or how to stage it.
(Photograph taken April 25, 2009, at 11:39 p.m. This is the beginning of Sunday Tour 1
Operations.)




Illustration 5. Containers with mixed color code labels are improperly staged, resulting
in additional mail handlings. (Photograph taken April 26, 2009, at 11:48 a.m.)




                                           17
Sunday Mail Processing Operations                                                  NO-AR-09-012



Criteria

Title 39, U.S.C. Part 1, Chapter 1, § 101, states that the Postal Service “. . . shall
provide prompt, reliable, and efficient services to patrons in all areas . . . .” Further, the
September 2005 Postal Service Strategic Transformation Plan states “The Postal
Service will continue to provide timely, reliable delivery to every address at reasonable
rates.” The Postal and Accountability Enhancement Act, P.L.109-435-December 20,
2006, Title II, highlights “. . .the need for the Postal Service to increase its efficiency and
reduce its costs, including infrastructure costs, to help maintain high quality, affordable
postal services. . . .”

Finally, the GAO states in its testimony titled Network Rightsizing Needed to Help Keep
USPS Financially Viable (GAO-09-674T, dated May 20, 2009) before the Subcommittee
on Federal Workforce, Postal Service, and the District of Columbia, Committee on
Oversight and Government Reform, House of Representatives, that:

       Maintaining USPS’s financial viability as the provider of affordable, high-quality
       universal postal service will require actions in a number of areas, such as
       (1) rightsizing its retail and mail processing networks by consolidating operations
       and closing unnecessary facilities and (2) reducing the size of its workforce.
       Rightsizing USPS’s retail and mail processing networks is needed to eliminate
       growing excess capacity and improve efficiency—action that is critical to
       maintaining affordable postal rates and streamlining USPS’s workforce, which
       generates close to 80 percent of its costs.


Impact

The Denver P&DC used more resources than necessary to process its mail volume on
Sunday, at a higher labor cost. Based on FY 2008 usage, if the Denver P&DC could
improve efficiency to the top 10 Group 1 facilities average and move some mail worked
on Sunday to Monday, they could save approximately 122,000 workhours at a cost
avoidance of more than $38 million in labor savings during a 10-year period.




                                              18
Sunday Mail Processing Operations                                                                NO-AR-09-012



            APPENDIX C. CALCULATION OF FUNDS PUT TO BETTER USE

The Denver P&DC could reduce approximately 122,000 workhours17 from Sunday mail
processing operations. The Denver P&DC’s FHP Sunday productivity in FY 2008 was
667. If the Denver P&DC achieved the average Sunday productivity level of its Group 1
facilities counterparts of 804, it would result in a reduction of 122,000 workhours by the
end of FY 2010.

We multiplied the Function 1 Mail Processing Level 5 Mail Handler rate of $55.49, which
includes the base rate of $48.80 and an additional 25 percent premium pay by the
reduction of 83,000 workhours.

                  FUNDS PUT TO BETTER USE (WORKHOUR SAVINGS)

                                                                                 Discounted
                                                                                  Savings
                                                              Workhour          (Net Present
                Employee Category Impacted                    Reduction            Value)*
              Function 1 Mail Processing Level
                                                                 83,000          $38,250,365
              5 Mail Handler Hours
                 * Timeframe 10 fiscal years.

NOTES:

     •   We based the 83,000 workhour reduction on management’s plan to reduce
         workhours over a 1-year period, based on FY 2008 usage and taking into
         account the 39,000 workhour saving that occurred in Quarters 1 and 2, FY 2009.

     •   We calculated cost avoidance using the savings in hours multiplied by the
         escalated labor rate over a 10-year period.

     •   We calculated the net present value using the May 27, 2009, discount rate of
         3.5 percent over a 10-year period.

     •   We based labor rates on FY 2010 Actual Wage Rates for a level 05 (PS-05) mail
         handler.

     •   The yearly escalation factor is 1.3 percent based on the Postal Service’s
         Decision Analysis Factors, effective May 27, 2009.


17
  The total of 122,000 workhours includes reducing 118,000 workhours by improving operational efficiencies and
reducing 4,000 workhours by processing some mail on Monday instead of Sunday. We are only claiming 83,000 in
workhour savings since the Denver P&DC used approximately 39,000 fewer workhours through Quarters 1 and 2 of
FY 2009, compared to the same period in FY 2008.




                                                      19
Sunday Mail Processing Operations                           NO-AR-09-012




                        APPENDIX D. MANAGEMENT’S COMMENTS




                                      20
Sunday Mail Processing Operations        NO-AR-09-012




                                    21
